SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
Southwest District, Torrance Courthouse, Department B
20TRCV00564
NIRA WOODS, DR. vs DEPARTMENT OF HOUSING AND
COMMUNITY DEVELOPEMENT
Judge: Honorable Gary Y. Tanaka
Judicial Assistant: J. Ahn
Courtroom Assistant: M. Fondon

September 28,2020
4:07 PM

CSR: None
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintiffs): No Appearances
For Defendant(s): No Appearances

NATURE OF PROCEEDINGS: Court Order
Plaintiffs action names 20 Defendants. One of the named defendant is a court reporter assigned
to Southwest District, Torrance Courthouse.
On September 28, 2020, Plaintiff filed an Ex Parte Application to Disqualify/Recuse City of
Torrance, Office of the City Attorney from representing certain named Defendants in the
Complaint, to be heard on September 29,2020 before Judge Gary Tanaka in Department B of the
Torrance Courthouse.
Pursuant to Code of Civil Procedure Section 170.1(a)(6)(A)(i), Judge Tanaka believes his recusal
would further the interests of justice and therefore disqualifies himself from the case. At the
direction of the Supervising Judge of Civil, Judge Samantha Jessner, the Court orders Case No.
20TRCV00564 transferred forthwith to the Central District Stanley Mosk Courthouse,
Department 1, for reassignment.
The Court recuses itself on this case. One of named Defendant on the case is an employee of the
Southwest District, Torrance Courthouse.
The case is ordered transferred to Judge Samantha Jessner in Department 1 at the Stanley Mosk
Courthouse for reassignment purposes only.
All future hearings in this department are advanced to this date and taken off calendar.
Certificate of Mailing is attached.

Minute Order

Page 1 of 1
APPENDIX A

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse, Department 1
20TRCV00564
NIRA WOODS, DR. vs DEPARTMENT OF HOUSING AND
COMMUNITY DEVELOPEMENT
Judge: Honorable Samantha Jessner
Judicial Assistant: A. Mchitarian
Courtroom Assistant: R. Innis

September 30, 2020
1:42 PM

CSR: None
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintiff(s): No Appearances
For Defendants): No Appearances

NATURE OF PROCEEDINGS: Court Order Re Reassignment Pursuant to a Recusal
Good cause appearing and on order of the Court, the above matter is reassigned from Judge Gary
Y. Tanaka in Department B, Torrance Courthouse, to Judge William D. Stewart in Department
A, Burbank Courthouse, for all further proceedings.
If any appearing party has not yet exercised a peremptory challenge under 170.6 CCP,
peremptory challenges by them to the newly assigned judge must be timely filed within the 15
day period specified in Section 170.6 CCP, with extensions of time pursuant to CCP 1013 if
service is by mail. Previously non-appearing parties, if any, have a 15-day statutory period from
first appearance to file a peremptory challenge (68616( 1) Govt. Code).
Plaintiff is directed to give notice.
Certificate of Mailing is attached.

Minute Order

Page 1 of 1
APPENDIX B

10

FILED

Superior Court of California
County of Los Angeles
2

OCT 0 8 2020

3

Sherri R. Carter, Executive Officer/Clerk
By.
fJir
Deputy

4
5
6
7
8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

FOR THE COUNTY OF LOS ANGELES

10
11

Plaintiff,

12
13
14

CASE NO. 20TRCV00564

DR. NIRA WOODS..

ORDER STRIKING STATEMENT OF

v.

DISQUALIFICATION FOR CAUSE BUT

DEPARTMENT OF HOUSING AND
COMMUNITY DEVELOPMENT, et ah.

15

GRANTING PEREMPTORY
CHALLENGE

Defendants

16
17
18

On October 5, 2020 Plaintiff Dr. Nira Woods filed a pleading as a statement of

19

disqualification for cause, in the alternative as a peremptory challenge motion, contending that

20

the assigned judge is biased. The statement of disqualification is based upon the complaining

21

party’s opinion and dissatisfaction with the judge's rulings, which are claimed to violate the

22

plaintiffs constitutional rights. Since neither a party’s opinion nor the court’s rulings are, as a

23

matter of law, legal grounds for disqualification for cause, the statement of disqualification for

24

cause demonstrates on its face no legal grounds for disqualification. It is stricken pursuant to

25

Code Civ. Proc., § 170.4, subdivision (b).

26

However, as a peremptory challenge motion pursuant to Code of Civil Procedure section

27

170.6, the challenge is timely and accepted. The case is transferred to the Supervising Judge for

28

reassignment.

1
Order Striking Statement of Disqualification But Granting Peremptory Challenge
APPENDIX C

11

1

A party's belief as to a judge's bias and prejudice is irrelevant and not controlling in a

2

motion to disqualify for cause, as the test applied is an objective one. United Farm Workers of

3

America v. Superior Court (1985) 170 Cal.App.3d 97, 104; Leland Stanford Junior University

4

v. Superior Court (1985) 173 Cal.App.3d 403,408 ("the litigants' necessarily partisan views [do]

5

not provide the applicable frame of reference." [Brackets in original.])

6

Code Civ. Proc., § 170.3(c)(1) requires that the disqualification statement set forth "the

7

facts constituting the grounds" for disqualification of the judge. Mere conclusions of the pleader

8

are insufficient. In re Morelli (1970) 11 Cal.App.3d 819, 843; Urias v. Harris Farms, Inc.

9

(1991) 234 Cal.App.3d 415. 426.

10

Rulings and findings do not constitute a valid basis for disqualification. As stated by the

11

California Supreme Court in People v. Guerra (2006) 37 Cal.4th 1067, 1112, *‘a trial court's

12

numerous rulings against a party—even when erroneous-do not establish a charge of judicial

13

bias, especially when they are subject to review.’' (Overruled on other grounds.) McEwen v.

14

Occidental Life Ins. Co. (1916) 172 Cal. 6, 11 (erroneous rulings, even when numerous and

15

continuous, are not grounds for bias or prejudice, nor are "judges' expressions of opinion uttered

16

in what he conceives to be the discharge of his judicial duty"). See also, Code of Civil Procedure

17

section 170.2(b), which provides with certain exceptions not here applicable: cit is not grounds

18

for disqualification that the judge ... [h]as in any capacity expressed a view on a legal or factual

19

issue presented in the proceeding...." Cf, Cal. Const., art. VI, § 10 which provides in pertinent

20

part with regard to all courts: "The court may make such comment on the evidence and the

21

testimony and credibility of any witness as in its opinion is necessary for the proper

22

determination of the cause.".

23

A party's remedy for an erroneous ruling is not a motion to disqualify, but rather review

24

by appeal or writ. See Ryan v. Welle (1948) 87 Ca!.App.2d 888, 893: “[A] wrong opinion on the

25

law of a case does not disqualify a judge, nor is it evidence of bias or prejudice.” Otherwise, the

26

court said, “no judge who is reversed by a higher court on any ruling or decision would ever be

27

qualified to proceed further in the particular case." The proper remedy, of course was an appeal

28

from the erroneous ruling. See 2 Witkin, California Procedure (5lh ed.), Courts, Nondisqualifying
2

Order Striking Statement of Disqualification But Granting Peremptory Challenge

12

1

Opinions, pp. 162-163.

2
3

Conclusion

4

Since the statement of disqualification is untimely, and on its face discloses no legal

5

grounds for disqualification, it is ordered stricken pursuant to Code Civ. Proc., § 170.4,

6

subdivision (b). The parties are reminded that this determination of the question of the

7

disqualification is not an appealable order and may be reviewed only by a writ of mandate from

8

the Court of Appeal sought within 10 days of notice to the parties of the decision. Code Civ.

9

Proc., § 170.3(d). In the event that a timely writ is sought, and an appellate court determines that

10

an answer should have been timely filed, such an answer is filed herewith. See PBA, LLC v.

11

KPOD, Ltd. (2003) 112 Cal.App.4th 965, 972; accord, Fine v. Superior Court (2002) 97

12

Cal.App.4th 651.658.

13
GOOD CAUSE APPEARING THEREFORE. It is so ordered.

14
15

16

Date:

6Ur t/

Hon. William D. Stewart

17
18
19
20
21
22
23
24
25
26
27
28
3
Order Striking Statement of Disqualification But Granting Peremptory Challenge

13
9'

Verified Answer of William D. Stewart
2

I, William D. Stewart, declare:

3

1.

4

this case.

5

2.

6

1 am a Judge of the Superior Court and as such have been assigned to preside over

I am not prejudiced or biased against or in favor of any party to this proceeding or

their counsel.

7

3.

All rulings made by me in this action have been based upon facts and arguments

8

officially presented to me and upon my understanding of the law. My statements and rulings are

9

set forth in the records and the files herein, which are the best evidence hereof. To the extent the

10

moving party's statement of those rulings and statements are inconsistent therewith, they are

11

denied.

12

13
14
15
16
17
18
19

4.

All statements made by me and all actions taken by me in this proceeding have

been done in furtherance of what I believe were my judicial duties,
5,

1 know of no facts or circumstances which would require my disqualification or

recusal in this case.
1 declare under penalty of perjury that the foregoing is true and correct and of my own
personal knowledge, except as to those matters stated to be on my information and belief, and as
to those matters, I believe them to be true. Executed this
S*
day of
2020. at

, California.

20

>A

\

S/

-/

William D. Stewart

21
22
23
24

25
26
27

28
4

Order Striking Statement of Disqualification But Granting Peremptory Challenge

